<html>
<title> - 2001 NATIONAL PARK SERVICE MANAGEMENT POLICIES</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
            2001 NATIONAL PARK SERVICE MANAGEMENT POLICIES
=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 25, 2002

                               __________

                           Serial No. 107-109

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
78-924                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado





                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 25, 2002...................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     4
        Prepared statement of....................................     5
    Duncan, Hon. John J., a Representative in Congress from the 
      State of Tennessee.........................................     5
    Gallegly, Hon. Elton, a Representative in Congress from the 
      State of California, Prepared statement of.................    32
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     7
    McGovern, Hon. James P., a Representative in Congress from 
      the State of Massachusetts.................................     6
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     3
    Solis, Hon. Hilda L., a Representative in Congress from the 
      State of California........................................     7
        Prepared statement of....................................     7
    Souder, Hon. Mark E.,, a Representative in Congress from the 
      State of Indiana...........................................     6

Statement of Witnesses:
    Mainella, Fran, Director, National Park Service, U.S. 
      Department of the Interior, Washington, D.C................     8
        Prepared statement of....................................    11

Additional materials supplied:
    Association of National Park Rangers, Statement submitted for 
      the record.................................................    30
    Kiernan, Thomas C., President, National Parks Conservation 
      Association, Statement submitted for the record............    32


OVERSIGHT HEARING ON THE 2001 NATIONAL PARK SERVICE MANAGEMENT POLICIES

                              ----------                              


                        Thursday, April 25, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 1324, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Mr. Radanovich. Good afternoon and welcome to today's 
hearing. Today, we are here to examine the 2001 National Park 
Service Management Policies. Before I begin, I would welcome 
the National Park Service Director, Fran Mainella, who is 
making her first appearance before the Subcommittee.
    Ms. Mainella. I am very pleased to be here, Mr. Chairman, 
and thank you for inviting me. If it is possible, I would like 
to bring forth to sit at the table with me my Deputy Director, 
Randy Jones, and also my Associate for Natural Resources, Mike 
Soukup.
    Mr. Radanovich. Not a problem. There being no objection, so 
ordered. I have to do that.
    Ms. Mainella. I also have my other deputy, Don Murphy, 
behind me as well. I did want to have a good strong team here 
with us today.
    Mr. Radanovich. Super. Welcome to the first appearance 
before the Committee. I understand it was your birthday 
yesterday. I want to wish you a happy birthday.
    Ms. Mainella. Yes, sir, it was.
    Mr. Radanovich. We will refrain from singing happy 
birthday.
    Ms. Mainella. Thank you. Do not ask me how old now.
    Mr. Radanovich. I am sure you will appreciate that.
    Ms. Mainella. Thank you so much.

STATEMENT OF THE HON. GEORGE P. RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. During the final days of the Clinton 
administration, the Park Service issued the new 2001 Management 
Policies, replacing those issued in 1988. And while a revision 
of some of the elements of the Management Policies may have 
been in order--indeed, most of the new handbook was not 
changed--there are several areas in which the policies shift 
from the previous standard is very significant and of some 
concern.
    For example, the 1988 policies that state Congress's 
mandate to the Park Service has been expressed as conserving 
resources while providing for the enjoyment by today's citizens 
in a manner that will leave them unimpaired for future 
generations. It goes on to say that there will inevitably be 
some tension between conservation of resources on the one hand 
and public enjoyment on the other.
    The National Park Service is charged with the difficult 
task of achieving both and this balancing act is not unusual. 
Congress has repeatedly required Federal agencies to balance 
two competing principles. In fact, our nation was founded upon 
requirements in the Constitution to balance competing 
principles.
    I am concerned that the new policies have discarded this 
balancing requirement. They appear to place the requirement to 
conserve park resources unimpaired far above the second 
component of that dual mandate. That is a very significant 
change from the direction given by Congress and from the policy 
direction relied upon by the Park personnel for decades.
    While nobody would argue that the Park Service does not 
have an important responsibility to conserve Park resources, 
many aspects of these new policy changes will pose numerous and 
unforseen management problems for the Park Service. In fact, 
superintendents have privately expressed to the Subcommittee 
considerable concern about the new policies and specifically 
about the new interpretations of the Organic Act.
    Although it has only been a short time since the policies 
were issued, the new standards seem to open the Park Service up 
to considerable new legal jeopardy and unforseen management 
problems. In addition, this new interpretation is inconsistent 
with the philosophy of balance enunciated many times by both 
the Secretary and the President of the United States.
    I am also concerned that the testimony submitted by the 
Park Service indicates that the policy interpreting the Organic 
Act was changed to comply with the Federal Court's direction in 
Southern Utah Wilderness Alliance v. Dabney. Not only was this 
never required by the court, but the Park Service seems to be 
unaware that this decision was reversed in August of 2000 and 
remanded back to that judge by the Tenth Circuit Court of 
Appeals.
    In fact, the Appeals Court's decision notes that the 
balancing act required in the 1988 Park Service policies was 
jettisoned by the Park Service after the original decision. The 
Appeals Court record clearly demonstrates their recognition 
that this new interpretation is a substantial rewrite of 
longstanding, recognized Park Service policy that has been in 
place for over 85 years.
    Thus, today, we have a policy that was crafted to respond 
to judicial direction that was never given and remains in place 
despite the Appeals Court reversals. Given the fact that the 
Park Service conducted a substantive reassessment of the 
Organic Act and revised its policies as a result of this 
District Court decision, we will expect another substantive 
reassessment of the policy revision because the decision was 
reversed.
    In addition, there are numerous other substantial changes 
in the Management Policies that need to be addressed. I look 
forward to making the case that the Management Policies need to 
receive further attention and revision and I look forward to a 
healthy dialog on these issues between the Subcommittee and the 
Park Service.
    Mr. Radanovich. With that, I will turn my attention now to 
the ranking member, Mrs. Christensen, for her opening 
statement. Donna?
    [The prepared statement of Mr. Radanovich follows:]

 Statement of The Honorable George P. Radanovich, a Representative in 
                 Congress from the State of California

    Good afternoon. The hearing will come to order. Today we are here 
to examine the 2001 National Park Service Management Policies. Before I 
begin with my opening statement though, I would like to welcome 
National Park Service Director Fran Mainella to the Subcommittee today. 
This is her first appearance before the Subcommittee and we are pleased 
to have her here with us.
    During the final days of the Clinton Administration, the Park 
Service issued the new 2001 Management Policies, replacing those issued 
in 1988. While a revision of some elements of the management policies 
may have been in order--indeed most of the new handbook has not 
changed--there are several areas in which the policy shift from the 
previous standard is very significant and concerning. For example, the 
1988 policies state that, ``Congress's mandate to the Park Service has 
been expressed as conserving resources while providing for their 
enjoyment by today's citizens in a manner that will leave them 
unimpaired for future generations.'' It goes on to say, ``There will 
inevitably be some tension between conservation of resources on the one 
hand and public enjoyment on the other. The National Park Service is 
charged with the difficult task of achieving both.'' This balancing act 
is not unusual. Congress has repeatedly required federal agencies to 
balance two competing principles. In fact, our nation was founded upon 
requirements in the Constitution to balance competing principles.
    I am deeply concerned that the new policies have discarded this 
balancing requirement. They very clearly place the requirement to 
conserve park resources unimpaired far and above the second component 
of that dual mandate. That is a very significant change from the 
direction given by Congress and, from the policy direction relied upon 
by park personnel for decades. While nobody would argue that the Park 
Service does not have an important responsibility to conserve park 
resources, many aspects of these new policy changes will pose numerous 
and unforeseen management problems for the Park Service.
    In fact, park superintendents have privately expressed to the 
Subcommittee considerable concern about the new policies, and 
specifically about the new interpretation of the Organic Act. Although 
it has only been a short time since the policies were issued, the new 
standard seems to open the Park Service up to considerable new legal 
jeopardy and unforseen management problems. In addition, this new 
interpretation is inconsistent with the philosophy of balance 
annunciated many times by both the Secretary and the President.
    I am also concerned that the testimony submitted by the Park 
Service indicates that the policy interpreting the Organic Act was 
changed to comply with a federal court's direction in Southern Utah 
Wilderness Alliance v. Dabney. Not only was this never required by the 
court, but the Park Service seems to be unaware that this decision was 
reversed in August of 2000 and remanded back to that judge by the 10th 
Circuit Court of Appeals. In fact, the Appeals Court decision notes 
that the balancing act, required in the 1988 Park Service policies, was 
jettisoned by the Park Service after the original decision. The Appeals 
Court record clearly demonstrates their recognition that this new 
interpretation is a substantial rewrite of long-standing recognized 
Park Service policy that has been in place for over 85 years.
    Thus, today we have a policy that was crafted to respond to 
judicial direction that was never given, and remains in place despite 
the Appeals Court's reversal. Given the fact that the Park Service 
conducted a substantive reassessment of the Organic Act and revised its 
policies as a result of this district court decision, we will expect 
another substantive reassessment and policy revision because the 
decision was reversed.
    In addition, there are numerous other substantial changes in the 
Management Policies that need to be addressed. I look forward to making 
the case that the Management Policies need to receive further attention 
and revision and I look forward to a healthy dialogue on these issues 
between the Subcommittee and the Park Service.
    I now turn to the Ranking Member, Mrs. Christensen, for an opening 
statement.
                                 ______
                                 

   STATEMENT OF THE HON. DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I, too, want to 
join you in welcoming Director Mainella to our hearing today 
and we look forward to your testimony.
    I know that I can speak for all of my colleagues on the 
Subcommittee when I say that we appreciate the good working 
relationship that we have with the National Park Service and we 
look forward to continuing working together to protect and 
preserve our national parks. If my constituents were here, they 
would be shocked, because we do have some thorny issues at 
home, but the statement still stands.
    Ms. Mainella. Thank you.
    Mrs. Christensen. The subject of today's oversight hearing, 
the National Park Service Management Policies 2001, was 
published by the National Park Service in December of 2000. As 
you know, Mr. Chairman and colleagues, the document is an 
attempt to synthesize requirements contained in the various 
authorities which control operation of the National Park 
System, including the U.S. Constitution, public laws, treaties, 
Executive Orders, regulations, directives, and others.
    Once compiled, Management Policies is considered the basic 
service-wide policy document of the National Park Service and 
adherence to policy is mandatory unless specifically waived or 
modified by the Secretary, the Assistant Secretary, or the 
Director. It is our understanding that this most recent version 
of the Management Policies supercedes the previous decision 
published in 1988.
    While development of the Management Policies is an internal 
process, the National Park Service is to be commended on its 
decision to provide an opportunity for public notice and 
comment on this edition, not once, but twice. After two comment 
periods, 60 days in 1998 and another 60 days in 1999, the 
National Park Service received approximately 125 public 
comments. Apparently, Chairman Hansen was among those who chose 
to provide input into this edition of the Management Policies 
prior to its publication.
    Given that this document is designed to cover literally 
every aspect of the National Park System, we have had some 
difficulty, though, in determining the precise purpose of 
today's meeting. We can only assume that there are members who 
have some concerns regarding particular aspects of the 
Management Policies and feel that input from the new Director 
would be useful. Such a dialog is very appropriate, but I just 
wanted to make one final point in closing.
    The National Park Service Management Policies 2001 is 
simply a reflection of the law governing the National Park 
Service and in our view it is an accurate one. It is my feeling 
that if the Subcommittee is troubled by some aspect of the 
operation of the National Park Service, it would be better for 
members to seek out the relevant underlying statute rather than 
seeking changes in a document simply intended to synthesize 
them.
    Again, I want to join you, Mr. Chairman, in welcoming our 
Director here today, and again, we look forward to hearing from 
you.
    [The prepared statement of Mrs. Christensen follows:]

 Statement of The Honorable Donna Christensen, a Delegate in Congress 
                        from the Virgin Islands

    Mr. Chairman, we join you in welcoming Director Mainella to the 
hearing today and look forward to her testimony. I know I speak for all 
of my colleagues on the Subcommittee when I say that we appreciate the 
good working relationship we have with the National Park Service and we 
look forward to continuing working together to protect and preserve our 
National Parks.
    The subject of today's oversight hearing, the National Park Service 
Management Policies 2001, was published by the NPS in December of 2000. 
As you know Mr. Chairman, the document is an attempt to synthesize 
requirements contained in the various authorities which control 
operation of the National Park System, including the U.S. Constitution, 
public laws, treaties, Executive Orders, regulations, directives and 
others. Once compiled, Management Policies is considered the ``basic, 
Service-wide, policy document of the National Park Service,'' and 
``adherence to policy is mandatory unless specifically waived or 
modified by the Secretary, the Assistant Secretary, or the Director.'' 
It is our understanding that this most recent version of the Management 
Policies supercedes the previous edition, published in 1988.
    While development of the Management Policies is an internal 
process, the NPS is to be commended on its decision to provide an 
opportunity for public notice and comment on this edition, not once but 
twice. After two comment periods, 60 days in 1998 and another 60 days 
in 1999, NPS received approximately 125 public comments. Apparently, 
Chairman Hansen was among those who chose to provide input into this 
edition of the Management Policies prior to its publication.
    Given that this document is designed to cover literally every 
aspect of the National Park System, we have had some difficult 
determining the precise purpose of today's meeting. We can only assume 
that there are Members who have concerns regarding particular aspects 
of the Management Policies and feel that input from the new Director 
will be useful. Such a dialogue is perfectly appropriate, but we feel 
compelled to make a final point in closing.
    The NPS Management Policies 2001 is simply a reflection of the law 
governing the NPS and, in our view, it is an accurate one. If the 
Subcommittee is troubled by some aspect of the operation of the 
National Park System, Members should seek out the relevant, underlying 
statute rather than seeking changes in a document simply intended to 
synthesize them.
    Again, we welcome the Director here today and look forward to her 
testimony.
                                 ______
                                 
    Ms. Mainella. Thank you so much.
    Mr. Radanovich. Thank you very much, Mrs. Christensen.
    Are there any other opening statements or brief comments 
that anybody else on the panel would like to make?
    Mr. Duncan. Yes.
    Mr. Radanovich. Mr. Duncan?

STATEMENT OF THE HON. JOHN J. DUNCAN, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Duncan. Mr. Chairman, thank you very much for calling 
this hearing. I do not have a formal or lengthy opening 
statement. I just want to also welcome Director Mainella to the 
Subcommittee. I have heard many good things about her career 
and the work that she has done over the years, and as some of 
you know, I represent the most heavily visited national park in 
the whole system, the Great Smoky Mountains, or I represent 
half of it, anyway, what is sometimes referred to as the quiet 
side of the Smokies. We have between nine and ten million 
visitors each year and I was pleased that the Director, I 
think, made her first visit after she became Director--
    Ms. Mainella. I did.
    Mr. Duncan. --to the other side of the Smokies, but we are 
always pleased to have you there any time you want to come, 
Director Mainella.
    My bias, though, because I do represent half of the Smokies 
is toward trying to do more for the parks that we already have 
rather than expanding the number of parks in any big way or 
expanding the areas under the Parks' jurisdiction. I think we 
need to take care of the parks that we already have, and that 
is sort of where I am coming from.
    But we will certainly be looking for ways to work with you 
in every way possible and we are pleased that you are here 
today. Thank you very much, Mr. Chairman.
    Mr. Radanovich. Mr. Souder?

   STATEMENT OF THE HON. MARK E. SOUDER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Souder. Some of my line of questioning is going to be 
represented in this kind of attitude and I want to make sure I 
get it on the record in the beginning. As I visited many of the 
parks around the country, one of the fundamental problems which 
was built into the National Park Service is this balance. But 
we have further confused that by having all types of units in 
the Park Service, from recreation areas, to lake shores, to 
parks that are predominately wilderness, to heritage areas 
where the park is partly involved, and historic sites, to 
preserves where we still have ranching.
    I think some of the confusion could be sorted through if it 
was not a one-size-fits all document, and I am going to be 
asking some questions along that line. So I thank the Chairman.
    Mr. Radanovich. Thank you, Mr. Souder.
    Are there any other comments? Jim?

 STATEMENT OF THE HON. JAMES P. McGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Yes. I just want to join with my colleagues 
here in welcoming you here today. I am from Massachusetts. A 
lot of my constituents go to other States to enjoy national 
parks, but nonetheless, I have to tell you that I probably get 
more mail on the preservation of national parks and the 
appropriate upkeep of these parks than on almost any other 
environmental issue out there.
    I think most of the people I represent believe that one 
important policy for you as Director to uphold is that when 
conflicts arise between conservation and enjoyment, that 
conservation takes precedence and is predominant. So I hope 
that you will address some of that when you talk here today. 
People are very, very concerned about conservation and it is an 
issue that I am sure that others have asked about, but I just 
want to put that out on the record in the beginning. Thank you.
    Mr. Radanovich. Anybody else for opening comments? Ms. 
Solis?

   STATEMENT OF THE HON. HILDA L. SOLIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Solis. Yes. Thank you, Mr. Chair. I know that we have a 
lot of information we will be hearing from you today, and I 
would like to hear about where the National Park Service can 
probably play a bigger role in urban communities, particularly 
where underrepresented communities are, and I mean Latino and 
Asian communities. We have different parks that are already 
dedicated to different Native American and to other individuals 
in our history, but those communities are still not a focus of 
any attention.
    And then also with respect to the 1916 Organic Act and the 
1978 amendment to the Act, the Congress made clear that the 
National Park Service would keep the parks in conditions that 
are unimpaired. I would like to see what your thoughts are on 
that in terms of how you will continue to carry forth this law. 
Thank you.
    Mr. Radanovich. Thank you very much.
    [The prepared statement of Ms. Solis follows:]

Statement of The Honorable Hilda L. Solis, a Representative in Congress 
                      from the State of California

    In the 1916 Organic Act and the 1978 Amendment to this Act, 
Congress made clear that the National Park Service must keep the parks 
in a condition that is ``unimpaired for the enjoyment of future 
generations.'' The Bush Administration, and Administrations of the 
past, have failed to provide the National Park Service with the 
financial tools needed to achieve this goal.
    I look forward to hearing from our witnesses today about how they 
are making sure that our parks are ``unimpaired'' and I hope they will 
provide us with ways to help you meet this goal in the future.
                                 ______
                                 
    Mr. Radanovich. A statement from Mr. Gilchrest?

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Just briefly. As we go through this hearing 
and you make decisions in the months and years ahead, my 
perspective, which I think is reflected by the members here 
today, is to err on the side of conservation whenever there is 
an issue of conflict, no matter how volatile that might be, 
because I do not think anywhere in any of the acts that 
preceded us to develop the National Park System there is any 
mention that we should emphasize or give credence to a narrow 
business interest for a group of people or an enterprise. But 
the Park Service, much to the thanks of Teddy Roosevelt and 
people like that, wanted to preserve these lands for all time 
for people to enjoy in its natural state.
    We appreciate you coming here today and giving your 
testimony. Thank you.
    Ms. Mainella. Thank you, sir.
    Mr. Radanovich. Thank you very much.
    Before you begin, Director, I just want to make everybody 
aware of the fact that there will be some votes coming up, 
probably at about 2:30. It looks like there could be an 
amendment vote, a motion to recommit, and final passage, so 
there will be either two or three votes coming up around then. 
Of course, we will adjourn and come back and continue the 
hearing.
    With that, welcome, Director Mainella, and you may begin 
your opening statement.

 STATEMENT OF FRAN MAINELLA, DIRECTOR, NATIONAL PARK SERVICE, 
WASHINGTON, D.C.; ACCOMPANIED BY DURAND ``RANDY'' JONES, DEPUTY 
 DIRECTOR, NATIONAL PARK SERVICE; DON MURPHY, DEPUTY DIRECTOR, 
 NATIONAL PARK SERVICE; AND MICHAEL SOUKUP, ASSOCIATE DIRECTOR 
          FOR NATURAL RESOURCES, NATIONAL PARK SERVICE

    Ms. Mainella. Thank you, Mr. Chairman. I would like to 
summarize my written statement that has been submitted to you 
for the record.
    Mr. Chairman, thank you again for the opportunity to appear 
before this Subcommittee to discuss the National Park Service 
Management Policies. Our policies play a vital role in helping 
us make intelligent and fair decisions about the national parks 
and I welcome this opportunity to explain what the policies 
are, how we developed them, and how we apply them to our daily 
management of the National Park System. I want to describe how 
we are ensuring that our Park superintendents implement the 
changes found in the Management Policies in 2001 appropriately 
and consistently. I will also welcome the opportunity to hear 
any concerns you may have about how we developed and how we 
apply the current policies.
    The policies are guiding principles or procedures that set 
the framework and provide consistent direction for management 
decisions. Throughout our policies, we try to translate laws, 
regulations, Executive Orders, and Secretarial Orders in a 
cohesive manner that all our employees can understand and 
implement as intended. Second-level directives, known as 
Director's Orders, supplement our Management Policies, and in 
some case a third level, such as a handbook or reference 
manual, is required, just to encourage clarity.
    Congress intended and visitors expect that parks will be 
managed to the highest standard of consistent and professional 
care. Visitors rightly expect that we have appropriate 
opportunities to enjoy park resources and values. Management 
Policies help bring a reasonable degree of order and discipline 
to the decisionmaking process, which is important in a 
dispersed organization with 385 diverse park units.
    Our written policies are also a means of keeping both the 
Congress and the public informed on how we implement the laws 
that govern parks. Policies provide an understanding of the 
ground rules by which the Service manages parks.
    Policies to guide park management have been with us a long 
time and many of the fundamentals have remained the same. Since 
1918, there have been 13 documents issued by the Secretary or 
the Director that provided guidance on the administration of 
the National Park units. The current form, known as Management 
Policies, first appeared in 1978 and have been revised four 
times since then.
    The 2001 issue of Management Policies was developed through 
an internal effort that began in 1994 and involved extensive 
field review, consultation, and an opportunity for public 
review and comment. Most of our policies offer flexibility to 
deal with special circumstances. If a park manager has a 
compelling reason why he or she cannot comply with a particular 
policy, the Secretary, Assistant Secretary, or Director may 
grant a waiver in writing, so long as the waiver is consistent 
with the statutory law and other higher authorities, such as 
the Presidential proclamations and Executive Orders.
    As we looked at the revision of the Management Policies 
from 1988, the policies have not changed dramatically. For 
example, the new edition explains in more detail the need for 
superintendents to be good neighbors by inviting participation 
in park planning and decisionmaking. There is also more detail 
and emphasis on the need for scientific management of park 
resources so that better decisions can be made and an increased 
emphasis on the administrative record which justifies the 
decisions made by park managers.
    I think one issue of particular interest that was addressed 
in the 1998 and more fully explained in the 2001 edition is the 
responsibility imposed on the Service by the ``no impairment'' 
clause of the 1916 National Park Service Organic Act. This 
issue was dealt with in greater detail primarily because of a 
court case involving Canyonlands National Park. The Organic Act 
requires the Service to conserve park resources and values and 
provide for their enjoyment in such a manner and by such a 
means as will leave them unimpaired for the enjoyment of future 
generations.
    This policy in Section 1.4 of the Management Policies 
essentially mirrors that requirement of the law and explains 
that impairment is an impact that, in the professional judgment 
of the responsible National Park Service manager, would harm 
the integrity of park resources or values, including the 
opportunities that otherwise would be present for the enjoyment 
of these resources or values. A significant change in how the 
National Park Service implements the impairment standard on a 
case-by-case basis is the integration of a question regarding 
impairment into the environmental impact evaluation that is 
already performed under the National Environmental Policy Act. 
This is a step that strengthens the administrative record and 
responds to the deficiencies found by the courts.
    Ultimately, the decision as to whether the adverse impacts 
of an action reaches a threshold and becomes an impairment lies 
with the superintendent and also the regional director. To 
ensure we develop consistency in the implementation of the 
impairment standard, most, if not all, of the findings of 
impairment will be subject to the review at the national level.
    The Service is going through an internal learning process 
as managers strive to meet their responsibilities under the 
policy. We are developing supplemental guidance to help all our 
employees better understand and implement the policy. Our 
planners and environmental coordinators have been instructed to 
monitor closely how the impairment issue is addressed in our 
planning and environmental documents and to coordinate with our 
Washington staff on any areas of uncertainty. We provide 
training and orientation of the ``no impairment'' policy at 
every level of the organization and at every opportunity.
    Another important safeguard in implementing this policy is 
the Secretary's four Cs program--conservation through 
consultation, cooperation, and communications. To ensure we 
carry out these principles, I have asked our policy team to 
begin drafting a Director's Order that will address public 
participation and outreach for our management decisions. I 
believe that implementing the ``no impairment'' policy under 
the guidance of the Secretary's four C principles will help 
ensure that our actions comply with the law, protect park 
resources, and guarantee the American public appropriate 
opportunities to enjoy their parks.
    I would like to clarify, if I may, any misunderstandings 
that may arise from the ``no impairment'' policy. It does not 
mean that the Service will not provide any new facilities in 
parks, nor that we will not allow reasonable public use and 
enjoyment of the parks. While visitors' uses may cause impacts, 
we are confident that we are managing over 275 million visits a 
year in a manner that leaves our national parks unimpaired and 
the public at large supports our efforts.
    While we must try to avoid impacts on parks, there are 
times when there is a compelling reason to develop a facility 
or allow an activity even though it may have an adverse impact 
on the parks environment. While I have been Director, the 
policy has not been unreasonably applied. It has not brought a 
halt to the construction of roads, visitors' centers, or other 
amenities to serve park visitors, nor has it curtailed visitor 
use and enjoyment. If the Subcommittee is aware of any 
situation where it believes the ``no impairment'' policy has 
led to an inappropriate decision, I would be pleased to review 
it and avoid any misapplication of the policy.
    One area that may lead to confusion is the distinction 
between appropriate uses and the impairment of resources. The 
term ``appropriate use'' is key to the way we manage and have 
enjoyment of the National Park System. We are constantly 
educating our superintendents and other appropriate individuals 
about appropriate use versus impairment, because they are 
different.
    National parks belong to all Americans. All Americans 
should feel welcome to experience the parks. Visitors to the 
National Park System today continue to enjoy a wide range of 
recreational activities where appropriate and as determined by 
legislation or a unit's general management plan. These 
activities include biking, wildlife viewing, boating, canoeing, 
sailing, personal watercraft, cross country skiing, downhill 
skiing, fishing, golfing, hiking, horseback riding, mountain 
climbing, off-road vehicle use, orienteering, rock climbing, 
scuba diving, snowmobiling, and swimming.
    We in the National Park Service appreciate Congress's past 
reminders that the enjoyment of parks today must not be at the 
expense of future generations. However, we also understand that 
some of the concerns Committee members have regarding the 
current management policies. With respect to the ``no 
impairment'' standard, we are developing supplemental guidance, 
expanding our training and orientation programs, reviewing our 
impairment findings at the national level, and keeping a better 
administrative record on all decisions. In addition, for all 
management decisions, we will be developing policy guidelines 
of public participation and outreach.
    With your help, the Service will ensure that we today and 
our children tomorrow continue to enjoy the same quality of the 
natural and cultural and splendid scenic opportunities of our 
National Park System.
    Mr. Chairman, thank you for the opportunity to provide you 
with this background information and for giving me the extended 
time to do so. This concludes my prepared remarks. I would be 
happy to answer any questions that you may have. Thank you.
    Mr. Radanovich. Thank you very much, Director.
    [The prepared statement of Ms. Mainella follows:]

   Statement of Fran Mainella, Director, National Park Service, U.S. 
                       Department of the Interior

    Mr. Chairman, thank you for the opportunity to appear before your 
subcommittee to discuss the National Park Service's Management 
Policies. Our policies play a vital role in helping us make intelligent 
decisions about the national parks. I welcome this opportunity to 
explain what the policies are, how we develop them, and how we apply 
them to our daily management of the national park system. I also look 
forward to hearing any concerns you may have about how we develop and 
apply the current policies.
The Need for Management Policies
    Policies are guiding principles or procedures that set the 
framework and provide consistent direction for management decisions. 
Through our policies, we try to translate laws, regulations, Executive 
orders, and Secretarial orders in a cohesive manner that all National 
Park Service employees can understand. These policies also keep 
Congress, the public, and interested stakeholders informed on how we 
will implement the laws that govern the parks. The Service has three 
tiers of policy that provide such guidance which include: Management 
Policies; Director's Orders; and Handbooks, Reference Manuals, and 
Other Documents.
    The National Park Service's Management Policies provide the 
broadest level of guidance by helping to bring a reasonable degree of 
order, consistency, and discipline to the decision-making process. Such 
guidance is particularly important in a dispersed organization, like 
ours, which manages 385 diverse units of the National Park System 
across the United States. The Management Policies are available to the 
public and other interested parties on the National Park Service 
website at www.nps.gov/policy.
    Policies to guide park management have been with us for a long 
time, and many of the fundamentals have remained the same. Since 1918, 
there have been 13 documents issued, by the Secretary or the Director, 
that provided guidance on the administration of National Park units. On 
each of these occasions, the policies have attempted to respond to 
changing times and the Service's changing needs. A similar effort may 
be appropriate if current policies are not providing park managers with 
a sufficient level of guidance or if improvements could be made to make 
the policies more effective.
Development of the Management Policies
    Policy initiatives may develop as a sudden, urgent response to a 
specific problem or issue, through an evolutionary process as the 
Service gains experience in addressing a problem or issue, or as a 
response to legislative or court action. Occasionally, policy 
initiatives originate from individuals, local or state governments, and 
non-governmental organizations outside the Service who have a strong 
interest in how the parks are managed. Most often, however, Service-
wide policy is developed through an internal effort involving field 
review, consultation with all levels of the organization, and an 
opportunity for public review and comment.
The 2001 Revision of the Management Policies
    The most recent effort to update the 1988 Management Policies was 
triggered by a review undertaken in 1991 by the Park Service concerning 
its responsibilities and prospects for the future. This review included 
a symposium that brought together individuals from within and outside 
the government to look at the challenges facing the National Park 
Service in the new millennium. The symposium culminated in the 1992 
publication: ``Report of National Parks for the 21st Century--The Vail 
Agenda.'' The report included a finding that ``if the National Park 
Service is to adequately meet the challenges before it, park system 
policy and management must be guided by a clear sense of its role and 
purpose.'' In response to the report, a Federal Register notice was 
published in June 1998, asking the public for their input on updating 
the 1988 policies. Over the next two years, two draft revisions to the 
1988 policies were circulated throughout the Service for comment. A 
January 2000 Federal Register notice invited public comment on a third 
draft that was distributed to all the members of this subcommittee and 
to the public. The result of this effort is the 2001 edition of the 
National Park Service the Management Policies.
    In the 2001 Management Policies, most of the policies in the 1988 
edition have been retained, but a fuller explanation of certain 
policies is provided. Highlights of the 2001 Management Policies 
include new or improved management and planning concepts, new guidance 
on implementing recently-passed laws, and improved consultation with 
interested groups.
    One aspect of the 2001 Management Policies of particular interest 
is the revisions that place greater emphasis on consultation with 
interested groups, such as gateway communities, community groups, 
traditional cultural groups, and Indian Tribal Governments. For 
example, the 2001 Management Policies emphasize that superintendents 
should act as good members of their community, by inviting 
participation in park planning and decision-making, and by being 
actively involved in the planning and regulatory activities of 
neighboring jurisdictions that may affect their parks. As you know, 
efforts to develop stronger partnerships with States, Tribes, local 
communities, and citizens are consistent with Secretary Norton's Four 
Cs Program--conservation through consultation, cooperation, and 
communication. We believe that more thoughtful policy decisions can be 
made if we work together toward our common goal of stewardship of the 
Nation's lands and resources.
The No-Impairment Provisions of the 2001 Management Policies
    One issue of particular interest is the way 2001 Management 
Policies interprets the 1916 National Park Service Organic Act's no-
impairment clause. The Organic Act requires the Service to conserve 
park resources and values and provide for their enjoyment ``in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''
    The Service's detailed explanation of the no-impairment clause is 
found in section 1.4 of 2001 Management Policies (see attachment). The 
policy states that the Service is to conserve in an unimpaired 
condition all the resources and values in the parks for the enjoyment 
of those who are here today, and those who will follow in generations 
to come. It explains that impairment ``is an impact that, in the 
professional judgment of the responsible NPS manager, would harm the 
integrity of park resources or values, including the opportunities that 
otherwise would be present for the enjoyment of those resources or 
values.'' Although section 1.4 does not explicitly define impairment, 
it does indicate that an impact is more likely to constitute an 
impairment if it affects a resource or value whose conservation is:
    <bullet> LNecessary to fulfill specific purposes identified in the 
establishing legislation or proclamation of the park;
    <bullet> LKey to the natural or cultural integrity of the park or 
to opportunities for enjoyment of the park; or
    <bullet> LIdentified as a goal in the park's general management 
plan or other relevant NPS planning documents.
    The National Park Service implements the standard on a case-by-case 
basis by integrating an impairment question into the environmental 
impact evaluation that is already performed under the National 
Environmental Policy Act (NEPA).
    These provisions that address the no-impairment issue were refined 
during the 2001 revision of the Management Policies. At that time, as 
part of the National Park Service's review of its 1988 edition of the 
Management Policies, the question arose as to whether the1988 
provisions of the no-impairment clause provided adequate guidance to 
managers. The Service has grappled with the no-impairment clause for 85 
years and had made diligent efforts to interpret Congressional intent 
in the Management Policies. However, several developments indicated 
that the Service needed to further clarify the impairment statement. 
First, some managers may have interpreted the clause to authorize a 
balancing act that would allow them to impair park resources if 
necessary to create opportunities for public use and enjoyment. Second, 
courts had ruled that while there is a balance between resource 
protection and public use, resource protection must be the 
``overarching concern.''
    On September 23, 1998, the District Court of Utah issued a decision 
on the impairment issue in Southern Utah Wilderness Alliance v. Dabney, 
et al. In this case, environmental groups challenged several aspects of 
Canyonlands National Park's Backcountry Management Plan including our 
decision to allow limited, permitted vehicle use of Salt Creek Road 
where there had previously been unlimited and uncontrolled use of the 
Road. The district court held that the Service had violated the 1916 
Organic Act with regard to the impairment standard by allowing any 
vehicle use in the area. This was the first court decision to find that 
Service-permitted actions in a park violated our mandate to leave 
resources unimpaired for the enjoyment of future generations. On 
appeal, the Tenth Circuit Court of Appeals noted that the Service did 
not have a final, adopted agency position addressing the question of 
when impairment occurs because the Management Policies were in the 
process of being revised.
    Policy was later finalized which sought to clarify the impairment 
standard. The Service's first obligation is to make certain that the 
right of future generations to enjoy park resources and values are not 
compromised by the actions we take today. To ensure consistent 
implementation of the impairment standard, nearly all findings of 
impairment are subject to public comment and review.
The Impact of the No-Impairment Policy on Public Use and Enjoyment
    Some people have characterized the no-impairment policy to mean 
that the Service will not provide any new facilities in the parks and 
will not allow reasonable public use and enjoyment of the parks, 
because doing so would always cause at least some degree of impairment. 
Such an interpretation mistakenly assumes that impacts on the 
environment are the same as impairments. The Service must try to avoid 
or mitigate adverse impacts on the parks, but there will be times when 
there is a compelling reason to develop a facility or allow an activity 
even though it may have an adverse impact on the park's environment.
    One of the questions I was asked during my confirmation hearing was 
whether I agreed with the current Management Policies' interpretation 
of the Organic Act. My response was that it seems reasonable that the 
Service would not allow activities that would deprive future 
generations of the ability to enjoy park resources or values. As 
Director, I believe that the no-impairment policy has not brought a 
halt to the construction of roads, visitor centers and other amenities 
to serve park visitors. The policy should be viewed as a step toward 
making the parks a welcome place for visitors to enjoy activities that 
are uniquely suited and appropriate to the special resources and values 
that draw them to the parks.
    However, if the Subcommittee is aware of any situation where it 
believes the no-impairment policy has led to an inappropriate decision, 
I would be pleased to review it with you. In the meantime, I would like 
to assure you that certain measures are in place to monitor 
implementation of the no-impairment policy and help ensure that it is 
not being unreasonably applied. Superintendents must now affirm in 
writing in their environmental assessments and impact statements that 
proposed actions will not impair park resources and values. In 
determining whether an impact would harm park resources and values, the 
superintendent must consider a variety of factors, including:
    <bullet> LThe particular resources and values that would be 
affected;
    <bullet> LThe severity, duration, and timing of the impact;
    <bullet> LThe direct and indirect effects of the impact;
    <bullet> LThe cumulative effects of the impact in question and 
other impacts; and
    <bullet> LAny specific provisions of the park's enabling 
legislation or proclamation.
    Regional directors must sign the environmental assessments and 
impact statements after evaluating whether the proposed action would 
harm the integrity of park resources or values, including the 
opportunities that otherwise would be present for the enjoyment of 
those resources or values. Our planners and regional environmental 
coordinators have been instructed to monitor closely how the impairment 
issue is addressed in our planning and environmental documents, and to 
coordinate with our Washington staff on any areas of uncertainty or 
controversy.
    We are continuing to develop supplemental guidance to help ensure 
that the no-impairment policy is consistently applied in a reasonable 
manner. Another important safeguard in implementing this policy is the 
Secretary's Four Cs program--conservation through consultation, 
cooperation, and communication. I meet on a monthly basis with our 
Regional Directors to discuss ways that we can use the Secretary's Four 
Cs program to make more thoughtful policy decisions together with our 
affected communities. I believe that implementing the no-impairment 
policy under the guidance of the Secretary's Four Cs principles will 
help ensure that our actions comply with the law, protect park 
resources, and guarantee the American public appropriate opportunities 
to enjoy access to their parks.
Appropriate Use and Enjoyment
    The word ``appropriate'' is key to the way we manage the national 
park system. As stated in the Management Policies, national parks 
belong to all Americans, and all Americans should feel welcome to 
experience the parks. While competing interests may disagree on their 
interpretation of ``appropriate use,'' our mandate is to ensure public 
access and enjoyment of the parks. I strongly support this mandate. As 
park stewards we must be thoughtful in authorizing activities in the 
parks. Congress has entrusted to our care the most unique and special 
places in America. I would like to offer some historical perspective 
about the types of ``appropriate'' recreational activities that have 
occurred in the National Parks through the years:
    <bullet> LIn 1930, a nine-hole miniature golf course was laid out 
on the grounds of the Ahwahnee Hotel in Yosemite National Park. Today, 
7 Federally-owned and approximately 41 private or municipal golf 
courses continue to operate in Park Service areas.
    <bullet> LIn 1883, the first pack trips into Yellowstone National 
Park began. Dude ranching was introduced at the end of the 1890s and 
reached its peak by 1920s. Today, horse concession operations currently 
exist in a number of parks including Yellowstone, Great Smoky 
Mountains, Shenandoah, Rocky Mountain, Grand Teton, Glacier, Yosemite 
and Zion National Parks.
    <bullet> LAs early as 1917, skiing occurred in Rocky Mountain 
National Park. In 1931, a major ski tournament held in the park was 
attended by 5,000 other spectators. During the 1964-65 season, 60,000 
people visited the ski area. This ski area, along with those at Lassen 
Volcanic and Sequoia National Parks were closed within the past 20 
years. The ski areas in Yosemite and Olympic National Parks remain 
open. Cross-country skiing and snowshoeing continue to be popular 
activities in many parks.
    The 385 diverse units of the National Park System are special 
places with great variety. Thus, what activities are appropriate in one 
area may not necessarily be appropriate in others. Therefore, the term 
appropriate use and enjoyment is not necessarily restrictive. Moreover, 
we must recognize that the terms may also be dependent upon the 
cultural context in which they are applied--i.e. what was considered an 
appropriate use in the 1920s may not necessarily be viewed as an 
appropriate use today.
    Visitors to the National Park System today continue to enjoy a wide 
range of recreational activities, where appropriate and as determined 
by legislation or a unit's General Management Plan. These activities 
include: biking, wildlife viewing, boating, canoeing, sailing, personal 
watercraft, cross-country skiing, down-hill skiing, fishing, golfing, 
hiking, horseback riding, mountain climbing, off-road vehicle use, 
orienteering, rock climbing, SCUBA diving, snowmobiling, and swimming.
    Mr. Chairman, thank you for the opportunity to provide you with 
this background information. This concludes my prepared remarks, and I 
will be happy to answer any questions you or other committee members 
might have.
      Section 1.4 of the National Park Service Management Policies
Interpreting the Key Statutory Provisions of the 1916 NPS Organic Act
    1.4 Park Management
    1.4.1 The Laws Generally Governing Park Management
    The most important statutory directive for the National Park 
Service is provided by interrelated provisions of the NPS Organic Act 
of 1916, and the NPS General Authorities Act of 1970, including 
amendments to the latter law enacted in 1978.
    The key management-related provision of the Organic Act is:
        [The National Park Service] shall promote and regulate the use 
        of the Federal areas known as national parks, monuments, and 
        reservations hereinafter specified ... by such means and 
        measures as conform to the fundamental purpose of the said 
        parks, monuments, and reservations, which purpose is to 
        conserve the scenery and the natural and historic objects and 
        the wild life therein and to provide for the enjoyment of the 
        same in such manner and by such means as will leave them 
        unimpaired for the enjoyment of future generations. (16 USC 1)
    Congress supplemented and clarified these provisions through 
enactment of the General Authorities Act in 1970, and again through 
enactment of a 1978 amendment to that law (the ``Redwood amendment,'' 
contained in a bill expanding Redwood National Park, which added the 
last two sentences in the following provision). The key part of that 
act, as amended, is:
    Congress declares that the national park system, which began with 
establishment of Yellowstone National Park in 1872, has since grown to 
include superlative natural, historic, and recreation areas in every 
major region of the United States, its territories and island 
possessions; that these areas, though distinct in character, are united 
through their inter-related purposes and resources into one national 
park system as cumulative expressions of a single national heritage; 
that, individually and collectively, these areas derive increased 
national dignity and recognition of their superlative environmental 
quality through their inclusion jointly with each other in one national 
park system preserved and managed for the benefit and inspiration of 
all the people of the United States; and that it is the purpose of this 
Act to include all such areas in the System and to clarify the 
authorities applicable to the system. Congress further reaffirms, 
declares, and directs that the promotion and regulation of the various 
areas of the National Park System, as defined in section 1c of this 
title, shall be consistent with and founded in the purpose established 
by section 1 of this title [the Organic Act provision quoted above], to 
the common benefit of all the people of the United States. The 
authorization of activities shall be construed and the protection, 
management, and administration of these areas shall be conducted in 
light of the high public value and integrity of the National Park 
System and shall not be exercised in derogation of the values and 
purposes for which these various areas have been established, except as 
may have been or shall be directly and specifically provided by 
Congress. (16 USC 1a-1)
    This section 1.4 of Management Policies represents the agency's 
interpretation of these key statutory provisions.
    1.4.2 ``Impairment'' and ``Derogation'': One Standard
    Congress intended the language of the Redwood amendment to the 
General Authorities Act to reiterate the provisions of the Organic Act, 
not create a substantively different management standard. The House 
committee report described the Redwood amendment as a ``declaration by 
Congress'' that the promotion and regulation of the national park 
system is to be consistent with the Organic Act. The Senate committee 
report stated that under the Redwood amendment, ``The Secretary has an 
absolute duty, which is not to be compromised, to fulfill the mandate 
of the 1916 Act to take whatever actions and seek whatever relief as 
will safeguard the units of the national park system.'' So, although 
the Organic Act and the General Authorities Act, as amended by the 
Redwood amendment, use different wording (``unimpaired'' and 
``derogation'') to describe what the National Park Service must avoid, 
they define a single standard for the management of the national park 
system--not two different standards. For simplicity, Management 
Policies uses ``impairment,'' not both statutory phrases, to refer to 
that single standard.
    1.4.3 The NPS Obligation to Conserve and Provide for Enjoyment of 
Park Resources and Values
    The ``fundamental purpose'' of the national park system, 
established by the Organic Act and reaffirmed by the General 
Authorities Act, as amended, begins with a mandate to conserve park 
resources and values. This mandate is independent of the separate 
prohibition on impairment, and so applies all the time, with respect to 
all park resources and values, even when there is no risk that any park 
resources or values may be impaired. NPS managers must always seek ways 
to avoid, or to minimize to the greatest degree practicable, adverse 
impacts on park resources and values. However, the laws do give the 
Service the management discretion to allow impacts to park resources 
and values when necessary and appropriate to fulfill the purposes of a 
park, so long as the impact does not constitute impairment of the 
affected resources and values.
    The fundamental purpose of all parks also includes providing for 
the enjoyment of park resources and values by the people of the United 
States. The ``enjoyment'' that is contemplated by the statute is broad; 
it is the enjoyment of all the people of the United States, not just 
those who visit parks, and so includes enjoyment both by people who 
directly experience parks and by those who appreciate them from afar. 
It also includes deriving benefit (including scientific knowledge) and 
inspiration from parks, as well as other forms of enjoyment.
    Congress, recognizing that the enjoyment by future generations of 
the national parks can be ensured only if the superb quality of park 
resources and values is left unimpaired, has provided that when there 
is a conflict between conserving resources and values and providing for 
enjoyment of them, conservation is to be predominant. This is how 
courts have consistently interpreted the Organic Act, in decisions that 
variously describe it as making ``resource protection the primary 
goal'' or ``resource protection the overarching concern,'' or as 
establishing a ``primary mission of resource conservation,'' a 
``conservation mandate,'' ``an overriding preservation mandate,'' ``an 
overarching goal of resource protection,'' or ``but a single purpose, 
namely, conservation.''
    1.4.4 The Prohibition on Impairment of Park Resources and Values
    While Congress has given the Service the management discretion to 
allow certain impacts within parks, that discretion is limited by the 
statutory requirement (enforceable by the federal courts) that the Park 
Service must leave park resources and values unimpaired, unless a 
particular law directly and specifically provides otherwise. This, the 
cornerstone of the Organic Act, establishes the primary responsibility 
of the National Park Service. It ensures that park resources and values 
will continue to exist in a condition that will allow the American 
people to have present and future opportunities for enjoyment of them.
    The impairment of park resources and values may not be allowed by 
the Service unless directly and specifically provided for by 
legislation or by the proclamation establishing the park. The relevant 
legislation or proclamation must provide explicitly (not by implication 
or inference) for the activity, in terms that keep the Service from 
having the authority to manage the activity so as to avoid the 
impairment.
    1.4.5 What Constitutes Impairment of Park Resources and Values
    The impairment that is prohibited by the Organic Act and the 
General Authorities Act is an impact that, in the professional judgment 
of the responsible NPS manager, would harm the integrity of park 
resources or values, including the opportunities that otherwise would 
be present for the enjoyment of those resources or values. Whether an 
impact meets this definition depends on the particular resources and 
values that would be affected; the severity, duration, and timing of 
the impact; the direct and indirect effects of the impact; and the 
cumulative effects of the impact in question and other impacts.
    An impact to any park resource or value may constitute an 
impairment. An impact would be more likely to constitute an impairment 
to the extent that it affects a resource or value whose conservation 
is:
    <bullet> LNecessary to fulfill specific purposes identified in the 
establishing legislation or proclamation of the park;
    <bullet> LKey to the natural or cultural integrity of the park or 
to opportunities for enjoyment of the park; or
    <bullet> LIdentified as a goal in the park's general management 
plan or other relevant NPS planning documents.
    An impact would be less likely to constitute an impairment to the 
extent that it is an unavoidable result, which cannot reasonably be 
further mitigated, of an action necessary to preserve or restore the 
integrity of park resources or values.
    Impairment may occur from visitor activities; NPS activities in the 
course of managing a park; or activities undertaken by concessioners, 
contractors, and others operating in the park.
    1.4.6 What Constitutes Park Resources and Values
    The ``park resources and values'' that are subject to the no-
impairment standard include:
    <bullet> Lthe park's scenery, natural and historic objects, and 
wildlife, and the processes and conditions that sustain them, 
including, to the extent present in the park: the ecological, 
biological, and physical processes that created the park and continue 
to act upon it; scenic features; natural visibility, both in daytime 
and at night; natural landscapes; natural soundscapes and smells; water 
and air resources; soils; geological resources; paleontological 
resources; archeological resources; cultural landscapes; ethnographic 
resources; historic and prehistoric sites, structures, and objects; 
museum collections; and native plants and animals;
    <bullet> Lopportunities to experience enjoyment of the above 
resources, to the extent that can be done without impairing any of 
them;
    <bullet> Lthe park's role in contributing to the national dignity, 
the high public value and integrity, and the superlative environmental 
quality of the national park system, and the benefit and inspiration 
provided to the American people by the national park system; and
    <bullet> Lany additional attributes encompassed by the specific 
values and purposes for which it was established.
    1.4.7 Decision-making Requirements to Avoid Impairments
    Before approving a proposed action that could lead to an impairment 
of park resources and values, an NPS decision-maker must consider the 
impacts of the proposed action and determine, in writing, that the 
activity will not lead to an impairment of park resources and values. 
If there would be an impairment, the action may not be approved.
    In making a determination of whether there would be an impairment, 
a National Park Service decision-maker must use his or her professional 
judgment. The decision-maker must consider any environmental 
assessments or environmental impact statements required by the National 
Environmental Policy Act of 1969 (NEPA); relevant scientific studies, 
and other sources of information; and public comments.
    When an NPS decision-maker becomes aware that an ongoing activity 
might have led or might be leading to an impairment of park resources 
or values, he or she must investigate and determine if there is, or 
will be, an impairment. Whenever practicable, such an investigation and 
determination will be made as part of an appropriate park planning 
process undertaken for other purposes. If it determined that there is, 
or will be, such an impairment, the Director must take appropriate 
action, to the extent possible within the Service's authorities and 
available resources, to eliminate the impairment. The action must 
eliminate the impairment as soon as reasonably possible, taking into 
consideration the nature, duration, magnitude, and other 
characteristics of the impacts to park resources and values, as well as 
the requirements of NEPA, the Administrative Procedure Act, and other 
applicable law.
                                 ______
                                 
    Mr. Radanovich. As you know, those bells were the vote 
calls--
    Ms. Mainella. Yes, sir.
    Mr. Radanovich. and we have probably got another 5 minutes, 
at least, before we should head out. If it is OK with the 
Committee, shall we recess and return to this after the last 
vote. If members who are interested to give questions and have 
some dialog, please do your best to get back here right after 
the vote. Thank you.
    We will be in recess until the votes are finished. Thanks.
    [Recess.]
    Mr. Radanovich. This hearing is back in session, and I 
think I will go ahead and start off with a few questions, Fran.
    Ms. Mainella. Yes, sir.
    Mr. Radanovich. If I can kind of go over my knowledge of 
the history of the development of these plans, it seems to me 
as they relate to the issue of impairment and the definition of 
impairment, it seems to have changed in this plan as a result 
of a lawsuit--I forget the date of the lawsuit, but it was 
1998--
    Ms. Mainella. Ninety-eight.
    Mr. Radanovich. --SUWA v. National Park Service, Southern 
Utah Wilderness Association, I believe, and it raised the 
impairment standard as the predominant mission of the Park 
Service, tipping 82 years of balancing resources protection and 
visitor enjoyment, and it seems to kind of strike at the heart 
of this whole issue of the idea that the Park Service and the 
Organic Act was formed to achieve a balance between 
conservation and access or enjoyment of the resources.
    Yet in a decision in 1998, in this court decision, at least 
the court seemed to prioritize one purpose above the other, 
giving the issue of the protection of the resources over the 
visitorship of this particular wilderness area, and it seems to 
me, and correct me if I am wrong, that that was the decision 
which led to the formulation of some of the Management Policies 
that we have seen adopted here today.
    Now, it was my knowledge this thing in 1999 was thrown out 
of court and I think the court had remanded in appeal that that 
finding was not right and that the Organic Act was written to 
stress the fact that it is a balancing act that we are looking 
at. It is not one use over the other.
    Can you kind of go through that for me, kind of lay it out 
a little bit?
    Ms. Mainella. I will be glad to as best as I can. Again, I 
was not here during that time, as you know. My understanding 
through my briefings and my reading of materials is that, in 
all honesty, if you go back to reading the 1916 Organic Act, as 
I read it, it always has been existing that the enjoyment was 
always under the contingency of the fact that it had to be that 
the resources were still always protected, or go unimpaired.
    So that was always like a modifying factor, so that has 
always existed, and being in public lands management as long as 
I have, we have always--my comment has always been, for those 
who have known me in Florida and others, is that there can be 
no outdoor recreation without protection of the resource first, 
and if you are going to err, you will err on the side of the 
resource, and so we have always been in that position.
    I think what happened in these court cases, as I have been 
briefed, and we do not have our solicitors with us here today--
I apologize on that--the court, the District Court out of Utah 
actually found us in violation not of policy but truly of the 
Organic Act, and that was the first time in our history that we 
know of that we have actually been found guilty of that.
    And then there was an appeal, and in the appeal, the 
decision was reversed, but it was remanded back to the District 
Court to look at it again, and through the explanations that I 
have been given it was because of the fact that we were not 
clear. We were working on policies and it did at that point, 
even though they had been working on policies in the National 
Park Service since 1994, it gave us an extra impetus to 
emphasize clarity in the impairment aspect so that it was not a 
court deciding what impairment was but actually done through 
professionals and park and recreation to help define that.
    The only thing I have on the actual court review is that I 
have got here a quote that says, ``The appeals court also wrote 
that we read the Act as permitting the National Park Service to 
balance the sometimes conflicting policies of resource 
conservation and visitor enjoyment in determining what 
activities should be permitted or prohibited. But the court 
added that the test for whether the National Park Service has 
performed its balancing properly is whether the resulting 
action leaves the resources unimpaired for the enjoyment of 
future generations.'' That is what the appeals court said when 
it reversed but sent it back to the district level of court.
    At this point, I do not know if I can go further in knowing 
more about that, and I would look to either Randy or Mike, if 
they have any follow-up, but again, I would have to pull my 
solicitors in and I could have them do some more write-up on 
it. But that is as much as I would be able to speak to, I 
think, in regard to what was taking place.
    But I know that--again, as you look at it, you are always 
doing a balancing but your erring always has to be on the side 
of the resource. By law, as we were found guilty of in the 
original case, but again, it was reversed, was that we were 
actually violating the Organic Act when we were trying to 
actually allow some access into the back country area. We 
thought we were restricting it but permitting some access and 
we thought that we were not in violation of any Organic Act.
    As we go through, I think we are still working on an 
environmental assessment in that area, and doing that, we would 
probably be looking at some kind of access back there again if 
the courts will allow us.
    Mr. Radanovich. Right. Just for entering into the record, 
there is a decision, as you are well aware, that dealt with in, 
I like to say my park, Yosemite National Park, the park within 
my district, where the lawsuit resulted in a court decision 
which basically spoke to the issue of the Organic Act and I 
would like to read it into the record. It kind of reinforces 
the issue of balancing as the approach.
    Ms. Mainella. Right.
    Mr. Radanovich. ``The Organic Act commits the National Park 
Service to protection and furtherance of two fundamentally 
competing values, the preservation of natural and cultural 
resources and the facilitation of public use and enjoyment. 
These competing values of conservation and public use have been 
actively in conflict since before the establishment of the 
National Park Service and the Organic Act did not resolve the 
conflict in favor of one side or the other. Rather, the Organic 
Act acknowledges a conflict and, saying nothing about how to 
achieve resolution, grants deference to the National Park 
Service in balancing the competing and conflicting values.'' 
This was in the case of Sierra Club v. Babbitt that was, of 
course, recently issued.
    Ms. Mainella. Right.
    Mr. Radanovich. My concern is that if there is an err to 
one side or the other, in particular on the issue of impairment 
and the conservation of resources, not that I do not want to 
see them conserved, but once you go down that road, then it is 
very subjective as to whose interpretation of impairment is 
going to be used.
    I could make the case that if you wanted to--in Yosemite, 
they will be developing a cultural center for Indians, the 
Native American community, in the park and they are going to 
disturb a couple blades of grass. Well, I could make the case 
that that would affect the impairment of the national park, and 
you could go to some real extremes of that.
    Ms. Mainella. Right.
    Mr. Radanovich. If you go down that road, I am very 
concerned that what you may end up with are plans that deny 
access to the parks.
    Ms. Mainella. I think one of the things we are working on 
fairly aggressively right now and was in my comments, and they 
had actually started before I had come there, is working on 
trying to get some guidelines for our superintendents and for 
all of us to better understand the difference between impacts, 
which are allowable, and in fact, we do not encourage them, 
obviously, but impacts are allowable and they do not cross that 
line and become impairments until they are very severe and they 
deal with the major establishing legislation of the park or 
dealing with the key resources of that park or go against 
something that is a key goal established in the management plan 
that has been reviewed through the public review and that 
process.
    Those are the things that, I think--we are trying to 
actually, since I have come on board, try to help give more 
consistency and these guidelines are going to be critical, as 
well as I do believe that the Director's Order--it is timely 
for me to come forward with a Director's Order on public 
participation and making sure it is clear that the public are 
invited into our parks.
    I think there were many pieces of legislation--some issues 
that took place, not necessarily legislation, that came out 
simultaneously with the Management Policies, personal 
watercraft issues, snowmobile issues, and others that may have 
also confused this impact and impairment and other things, as 
well as just managerial decisions. My guess is a lot of things 
that some of the members here of this Committee will encounter 
is that the appropriate use--what is an appropriate use in a 
park?
    For example, I give the example of it is OK to go to the 
mall and have a boom box, for example, playing music out there. 
But to do that at the U.S.S. Arizona, that is a sacred, I mean, 
it is a quiet place. That is an inappropriate--there is where 
the same activity is OK one place but not in the other.
    Mr. Radanovich. Thank you very much.
    Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    I wanted to ask about any process that might take place 
from now on, because the development of this document has been 
more than 10 years in the making. There must be an interim 
process for altering or updating it, short of a complete 
revision, and if so, can you describe for us that process, and 
if you have used it, maybe an example of where you have used it 
already.
    Ms. Mainella. What we would be looking at doing, again, it 
is an administrative--it is not a regulation. It is coming from 
the Department and it is evolving. In fact, if you look at some 
of the language on soundscapes and other things, that is still 
evolving. Mike Soukup is here and could even speak to that as 
we go forth.
    So what we will be able to do is work with that. As we see 
where we need to further clarify, we will be able to do that 
through--we will make sure it is through a good public review. 
But also, I can do Director's Orders. You heard me speak about 
Director's Orders. For example, to further clarify what is the 
intent of, where it may be very general in a policy, be able to 
do a Director's Order that gives more clarity, and the 
importance is so that our folks in all--everyone knows exactly 
what we are looking at and we are able to establish much more 
consistency throughout the system. I hope that answers the 
question.
    Mrs. Christensen. It seems like there has been a lot 
written in the papers recently about the Park Service, 
monuments, et cetera, and this morning we had a meeting that 
looked at some public opinion polls. Whatever you feel about 
polls, they do give us an idea of where the people we serve 
stand on issues and these indicated that most Americans are 
really concerned about the protection of our open spaces, our 
parks, and want stronger laws, or really, mostly they want to 
see that the laws are strictly enforced, those that are on the 
books are strictly enforced.
    I just wanted some assurance. Is that the position of the 
Park Service? They feel that they are not being.
    Ms. Mainella. We hope that we are doing a fine job in 
enforcing what rules we have on the books. Obviously, again, 
education is a key element and we continue to--I will be 
emphasizing education of our employees at a greater level than 
probably we have ever done before and making sure, even if we 
are not law enforcement officers that are out there, because 
enforcement can happen without being law enforcement officers, 
make sure we are following through on all the guidance that is 
set forth.
    Randy, I do not know if you have any follow-up. Randy 
Jones, who is now my deputy, has been a superintendent most 
recently at Rocky Mountain National Park--
    Mrs. Christensen. And before you answer, there seems to be 
the impression based on these surveys that as many as 80 
percent of the respondents feeling that the enforcement of the 
laws or the status of the laws was just not strong enough.
    Ms. Mainella. We had not seen that survey, I know myself, 
because I know we have a 95 percent satisfaction level on the 
surveys we have done on our visitations in parks, but I am not 
familiar. Did you feel that you had good law enforcement?
    Mr. Jones. I have certainly not experienced any of that 
kind of expression in the years that I was at Rocky Mountain 
National Park, for example. I think a lot of the issues we deal 
with, especially the whole public use versus resource 
protection, is an issue of competing values and is an issue of 
balancing that different segments of the public come and 
emphasize one position versus another.
    On that issue, I have always felt, though, that the best 
way to protect parks for the long haul, looking to future 
generations, is that the parks need to remain relevant to 
society, and the best way of doing that is to have the parks 
open and available for public use and have the public have a 
great time in the parks, and I think the visitation shows that 
that is happening.
    Mrs. Christensen. I think it probably goes back to the 
impairment issue and the always erring on the side of 
conservation. I think that is probably what some of the concern 
is.
    I have probably one other question in this round and it 
goes back to something Mr. Souder said. The Organic Act 
establishing the Park Service has said these areas, in 
describing the parks, though distinct in character, are united 
through the interrelated purposes and resources into one 
National Park System as cumulative expressions of a single 
national heritage.
    Now, to me, that sounds as though--it says it is one park 
system. How I interpret that is that there is one management, 
or a set of concrete principles that govern the management of 
all parks, regardless of where they are, what kind of parks 
they are, and I wanted to know if that was the interpretation 
of the Park Service.
    Ms. Mainella. We do view ourselves as one National Park 
System, and through the policies, what we are hoping, I think, 
as they were being worked on was to help make us more 
consistent across the system, but to do so still on a case-by-
case basis in the sense that we have core values, core 
questions that are asked through, when you are evaluating, is 
this an appropriate use? Is this impairment? There are certain 
questions that a superintendent will ask no matter whether they 
are at a recreation area or whether they are in a preserve or 
different aspects.
    Of course, the enabling legislation, though, may have 
established certain unique rights, for example, Big Cypress 
having hunting allowed in the park in that particular area, or 
some others that allow certain establishments of certain 
activities that may not be consistent with the rest of the 
system.
    Mrs. Christensen. So there are parks that have hunting in 
the parks?
    Ms. Mainella. There are. They are not under--they are under 
the generic name of parks, and I think that goes back to the 
confusion that sometimes exists. In Big Cypress, of course, it 
is labeled as a preserve. Randy, you may want to follow up.
    Mr. Jones. The National Park System certainly has evolved 
since 1872 when Yellowstone was first established. Up until 
really the 1950's and 1960's, most of the national parks were 
the big Western areas, the Grand Canyons, the Yellowstones, or 
the great historic areas like the Statue of Liberty or 
Gettysburg.
    But in the 1960's and 1970's continuing through today, 
there have been the whole addition of seashores, lakeshores, 
recreation areas, urban recreation areas. The national preserve 
concept was actually developed by this Committee in 1974, which 
was a recognition that there are some places in the National 
Park System where hunting, in fact, is appropriate and is 
allowed in the statutes establishing those areas. Since then, 
we now have preserves all over the country, and most recently, 
of course, with the designation of heritage areas that we are 
involved in that are a totally different concept.
    So one of the challenges we have and one of the education 
challenges we have with our employees that move around the 
Service is we have to have guiding, overreaching principles for 
the National Park System, but, in fact, one size does not fit 
all because the statutes establishing the different areas are 
different and what is appropriate at Lake Mead may not be 
appropriate at a Yellowstone or a Grand Canyon.
    Mrs. Christensen. That sounds like that invites a lot of 
confusion. My time is up. I will come back on the next round.
    Mr. Radanovich. Mr. Souder?
    Mr. Souder. Thank you. I would like to continue on this 
vein.
    My sense, and I have just skimmed this report, is that this 
does not pick up those inconsistencies, and what I am wondering 
is why a policy document would not say, this is the minimal 
standard for everybody, and then it is almost a gradation of 
uses up toward wilderness, because that is, in fact, how you 
are functioning.
    Ms. Mainella. Right.
    Mr. Souder. Now, some of it is by law, some of it is by 
practicality. Let me illustrate with a question. One of our big 
debates here is should there be no net degradation of natural 
resources, almost like our wetland standard. That has been kind 
of the case in most of the big Western parks on lodging, on 
campsites, on other questions like that. Is that something that 
you kind of view as a policy, no net degradation?
    Ms. Mainella. I guess what I think is consistent, and Mike 
may be able to help me in a minute, is that, of course, there 
is no--in none of our parks, be it recreation areas or 
otherwise, should there be any impairment taking place. What 
does happen, though, and the determination gets a little more--
this is where a recreation area is allowed to have by its 
establishment--its legislation usually allows more recreation 
activities that are acceptable without crossing into where it 
might be even viewed as an impact.
    I think the past years, they may have looked, at, well, 
should we do by classifications different levels of activities? 
My own experience beyond even the National Park System is that 
we have always tried to set certain questions, which is what 
has come out in the policies, to look at every area, but always 
going back again to the enabling legislation and the 
descriptions. Many of us, when I was in State parks, looked at 
it as classifications of unit to decide that.
    Mike, I do not know if you have a follow-up on that.
    Mr. Soukup. Yes. I just might add to that, in fact.
    Ms. Mainella. This is Mike Soukup.
    Mr. Soukup. The General Authorities Act of 1970 said that 
we ought to have essentially what you suggest, and that is that 
baseline minimal standards for all the units, no matter what 
their designation might be, while observing the intent of the 
legislation, which is often quite detailed about what should go 
on in that park, what should be grandfathered in, and how that 
park should be managed for, in some cases, increased 
recreational uses or certain kinds of special things that 
historically occurred there.
    So with that policy document that you have there, in my 
mind, that is kind of the basic standard by which all units 
will be managed, taking into account what is in the enabling 
legislation in terms of special things that might happen there. 
Let me go through some specific examples.
    What you are basically suggesting is that while there 
might--you are using the term impairment as opposed to 
degradation--
    Ms. Mainella. Supposedly, they are the same.
    Mr. Soukup. --that when the rubber meets the road in these 
different conflicts, because there is, I would argue, it is 
day-to-day functioning that way, but because we kind of talk 
about what was grandfathered in, the bias moves toward 
restricting visitation or activities-type things as opposed to 
resource protection. It is not necessarily bad as long as you 
know exactly what you are doing, and I would argue right now it 
is a random pattern, which is what is partly causing the 
conflict. Let me give you some examples.
    We just passed Fort Clatsop legislation earlier this week. 
That will be a net degradation of a natural resource because 
right now it is a forest and we are going to put a trail 
through. That is the point of the park, is to have a trail that 
goes from Fort Clatsop to the ocean. On the other hand, as 
opposed to having it as a housing development, that is not a 
degradation, so depending even on how you define that.
    At Elkhorn Ranch, trying to add to Theodore Roosevelt, 
there, it would be a preserve. That would be an argument that 
it is grandfathered in, conceivably, but right now, some of 
that area is not used that way but it was a historic use a long 
time ago.
    At Rocky Mountain, we visited a ranch that you are working 
to preserve. At each of these parks, what is the battle between 
cultural resources and natural resources? Do you keep every 
ranch there at Grand Teton, every ranch at Rocky Mountain?
    One of the fundamental things here is that we have two 
different, even in the historic preservation versus the natural 
preservation, yet alone the visitor utilization question comes 
into conflict, as it did at Gettysburg.
    Another fundamental question is, I would argue that some of 
the parks are designed by nature to be conservation oriented. 
In other words, the very thing that Mather first put in, the 
dilemma that everybody is wrestling with every since, 
visitation and preservation. Everglades predominately is a 
natural resource--
    Ms. Mainella. Right, exactly.
    Mr. Soukup. --with some visitation, whereas Lake Mead is a 
dam and it did not even have either as its first goal, and now 
it is predominately oriented toward visitation with some use of 
that.
    Even lakeshores differ. When we cut the Indiana Dunes out 
of Gary, Indiana, and Chicago, it is different than the 
lakeshore at Cape Hatteras, which is different than the 
lakeshore at Sleeping Bear in Michigan, where you just had a 
few people.
    So what to me seems, just as a business guy, that there is 
a hierarchy here that says the more pristine the wilderness, 
the more you move it toward the wilderness standard. We have a 
hierarchy. Golden Gate is one of the more controversial because 
there, we have added multiple types of units and there needs to 
be some recognition that if part of a recreation area, which I 
would argue the primary goal of a recreation area has 
recreation in it, that if it is going to have to move more 
toward the park status, then it ought to be filed toward park. 
And if a park is going more toward wilderness status, we ought 
to recognize that part of that is going toward wilderness. 
Informally, you are doing this, but part of the conflicts that 
we are having is that it is informal rather than in a 
guidelined document.
    And then we have the whole question of, obviously, a park 
is different than a forest, and what we are continuing to see 
on BLM and forest land is visitor services, when possible, are 
located at the access to a wilderness park, if possible.
    But there needs to be kind of a holistic, more specified 
gradation thing, because what I do not sense out of here is the 
conflicts we are having on snowmobiles, personal watercraft, 
horseback riding, cultural versus historic preservation. You 
are trying to reach that goal, but part of it, by having it say 
it is a park, I would argue that you have gone beyond the 
minimal standards in the document and argued that the reason 
you have gone beyond the minimal standard is they were 
grandfathered in when, in fact, some of these things are 
continuing questions.
    For example, if I can throw one more concept out and then I 
will be quiet, that part of what there is a general feeling 
right now is that the number of campsites, the amount of 
lodging, the number of trails are going to be permanently 
frozen at, say, the year 2000 and that our lodging, trails, and 
other facilities, if it is not a wilderness designated part of 
a park, is it meant to be a percent of visitation or is it 
meant to be a capped amount?
    And that is a fundamental resolution that has not really 
come forth as to how we are going to use these parks, because 
clearly, demand for the parks is going to increase over time. 
Does that mean--that was my no net degradation. It is a 
fundamental debate that each superintendent is floundering 
around with and whoever has the biggest pressure group at the 
time or whoever is screaming loud, that whole thing on the 
community support, if the bedroom community gets mad enough, if 
there are enough powerful visitors to change something on one 
side or the other or one administration has a change, but I 
think that this document has to kind of grasp some of these and 
put in, how do recreation areas evolve, or do they, because we 
have mixed recreation.
    What is the Boston Island Park area? There, you improve it 
if you put in a picnic grounds as opposed to Logan Airport.
    Ms. Mainella. Right. Exactly.
    Mr. Soukup. I am not proposing getting rid of Logan 
Airport.
    [Laughter.]
    Ms. Mainella. I think, again, I appreciate your comments 
and I think those are something that, again, I keep going back 
to. I think these policies, as it has been depicted to me and 
as I read them, we are trying to start to make a method of some 
more consistency in decisionmaking and to be able to find 
questions more definitively to be asking and looking at so you 
are not doing what you are indicating with the different 
pressure groups or whatever.
    Also, hopefully, the management plan process is also an 
important part of trying to determine how we move forward with 
a particular park, and again, it does encourage public 
participation because I do believe that that is something that 
is important. But it also does so in a way, again, trying to 
reiterate the issues that come back to making sure things are 
not impaired, but also to make sure that we still have 
environmentally friendly access that is appropriate and make 
sure people know that they are welcomed.
    I really would appreciate maybe getting a chance to visit 
with you at another time to get more thoughts on some of this, 
because as, again, I see some evolving issues that are going to 
come forth as we--again, these have only been in place--this 
was only printed in March of 2001, so a lot of folks, even 
though it was on the Internet probably a few months before, are 
really just going and working with it. It was still so new. I 
think that we are going to need to let ourselves evolve, train 
employees as we go forth, but also have them encourage us, as 
you are, to think about some of the challenges that lay before 
us that we may not have yet addressed.
    Mr. Souder. Thank you.
    Ms. Mainella. Thank you.
    Mr. Radanovich. Thank you.
    Director Mainella, I know that on the issue of the plan as 
it addresses the distinction between impact and impairment, is 
it safe to say that it is left solely to the discretion of that 
particular park superintendent to determine that, or--
    Ms. Mainella. They are to make the recommendation to us and 
then the regional director has to sign off if it is an 
impairment. Also, what we have found, because most impairments 
involve a NEPA process, it means it comes all the way usually 
to our Washington office to oversee that, as well, so there is 
more involvement.
    But one of the things I think I mentioned in my comments is 
that I am going to be asking for more record keeping so that I 
have a better handle, because I think you probably can list 
some places and areas that I am not yet familiar with that are 
having some issues that may either be appropriate use 
discussions or dealing with impact or maybe impairment, but to 
have a better understanding yet of what is going on.
    Again, I apologize. I am excited about being in this 
position, but having only been here for probably just about--I 
am in my eighth month now, I would want to continue to monitor 
this some more and have a little more data for you as we go 
through, because I do not think we still have collected up all 
that we could to better help us understand some of the 
scenarios that are out there that we need to be looking at.
    Mr. Radanovich. Director, you had mentioned during the 
course of this thing, too, the possibility of reviewing the 
documents, taking a second look. Can you give me an idea of 
what is the intention, I think, from here forward, especially 
with the idea that a lot of this was based on a Canyonlands 
decision that was reversed. Would we consider this to be 
perhaps the intent to provide substantive review of the 
policies that would lead to rewrite, or give me an idea of the 
level of review that you intend to do.
    Ms. Mainella. What I would like to do, I would rather not 
be rewriting the policies at this point. I would rather 
continue to monitor them and let them continue to evolve. There 
are going to be places that we are going to want to, and I 
would use the word tweak, I guess, or modify as we go along 
because we are going to be learning some things as we move on 
this. But I think that, again, I would ask your support to 
allow me to have some time to continue to monitor, talk about 
the Director's Order, to talk about public participation.
    Let us also get back to you from the court--based on your 
opening comments, to get a better understanding of the court 
case and making sure with our solicitors, I think you mentioned 
about whether we need--should a briefing be--we talked maybe a 
little bit about whether briefing changes or anything like that 
should take place, or maybe some thoughts on that. We just need 
to make sure that we have had enough time to look at these, and 
I would like to work, again, through clarifying maybe what is 
in the policies rather than looking at a rewrite, if I can do 
so, at this time.
    Mr. Radanovich. Right. I am aware that on this particular 
lawsuit that we were talking about that was remanded back to 
the court, that the court is still going to be making a 
decision. I guess I have a bit of a concern if the court uses 
these documents to justify any type of a decision, it may 
influence the decision incorrectly. Are we looking at the 
possibility of a suspension of these documents in the meantime 
to protect how they might be interpreted in cases that may come 
down between now and when these policies might be clarified or 
change?
    Ms. Mainella. The only thing that I would--I really would 
not recommend at this point to do a suspension of these 
documents. What I would suggest is that we go back and talk 
with our solicitors. I have not seen even the brief that they 
sent back, exactly what that indicated as far as the courts. We 
can ask our--because the Department of Justice is also 
involved, obviously, in the court case--to give you a further 
update and to make sure that, again, I would like to continue 
to move forward on this.
    The brief itself may be something that can be looked at. I 
do not know. But that is something that I would rather keep 
moving forward with these policies, if we can, for at least a 
period of time, to be able to review them and monitor them, but 
ask that our solicitors and the Department of Justice--I will 
go back and ask them to give us a further update as far as this 
court case is concerned.
    Mr. Radanovich. OK. I am wondering if we cannot do that in 
a written way that can express--I am not sure how to do it, but 
my concern is how a court might use a document that has been 
adopted already in determining their decision, whereas if it is 
going to be tweaked or changed or clarified in a manner not 
consistent with the document now, I would hate to see that 
court ruling on it.
    Ms. Mainella. Right.
    Mr. Radanovich. Maybe I should ask the question of you and 
you get back to me on if there is going to be a substantive 
change to the document, or the possibility that it is possible 
that that could happen, then if we can get it down in a written 
correspondence between you and I, I think that that might help 
on any pending court issue.
    Ms. Mainella. Right. I think again, though, I do not know 
whether these would change in their--I mean, I guess the 
impairment aspect is really trying to define itself as, again, 
the fact that we should not be impairing our resources, and 
whether that interpretation is clear enough or whether that is 
giving any mis-signals to the courts, that is what I think I 
would like to take back and talk to the solicitors about and 
then confer with you.
    Mr. Radanovich. OK. To your knowledge, has the Park 
Service, if there is a balancing act between conservation and 
visitorship, or however you want to say this thing--
    Ms. Mainella. Right.
    Mr. Radanovich. --have they ever erred on the side of 
visitorship? You are talking about a balancing act. I am sure 
there are times where--
    Ms. Mainella. I am sure that--I do not know the history, 
but I am sure we would find examples where we may have erred on 
the side of the recreation but may have come back and decided 
again that we needed to come back. The erring on the side of 
the resource, that is the permanent aspect that is--and again, 
even going outside National Park Service, if you talk to public 
land managers, the resource, the cultural and natural 
resources, what is not ever replaceable, we want to invite the 
public to an environmentally friendly access, but we do not 
want to do it at the cost of permanent loss to our resource on 
a level of impairment.
    Mr. Radanovich. Which I would not want to see--
    Ms. Mainella. Right. I do not think you would, either.
    Mr. Radanovich. --a resource impaired in any way. But my 
concern is the error then leads to lawsuits by special interest 
groups who would rather have nobody in the parks and blah, 
blah, blah. That is the way the agenda goes, and again, that is 
the big fear that I have with access to the national parks.
    Mrs. Christensen?
    Mrs. Christensen. Thank you, Mr. Chairman.
    Just to follow up on that, I have at least six cases here. 
I do not know that this exhausts all of the cases that would go 
back to the issue of erring on the side of conservation, but 
all of these, I am informed, do that and support the balancing 
in favor of preservation over development. This may not be all 
of them.
    I wanted to also go back to the different standards and 
gradations, because it is my information that back in 1978, 
Congress, seeing the problem created around different standards 
and gradations of parks around the country, legislated that 
there should be one standard for all parks and that except for 
very superficial differences in management, that it is only 
when Congress specifies that there should be a different 
management standard for a park that that should occur. That is 
correct?
    Ms. Mainella. That is the way I understand it, for the most 
part, yes.
    Mrs. Christensen. OK. The Congress does have to specify. 
Otherwise, they are all managed basically the same except for 
some very, very superficial differences?
    Ms. Mainella. Based on your resources, we can do hiking 
where maybe someplace else you cannot.
    Mrs. Christensen. I wanted to take the opportunity to just 
mention some issues that relate specifically to my district 
briefly. One is our fee demo program.
    Ms. Mainella. Yes, ma'am.
    Mrs. Christensen. We are already halfway through the year. 
I am not sure I am going to get a chance to have you here again 
before we complete the year. We have a fee demo program. They 
are called user fees, and that is really termed admission fees. 
But given the fact that two-thirds of the Island of St. John is 
a national park and that there is a conflict in the legislation 
which established the park which prohibited the charging of 
fees for entrance to admission to the park to Virgin Islands 
residents.
    I am not asking for interpretation right now. I am just 
asking for your commitment to work with us to see if we can 
find a way to, since this is just a demo program, since the 
legislation that transferred this land to the parks did so 
state, to work out some arrangement that could be more 
palatable to the people of St. John and the Virgin Islands, 
especially since there are so many other issues that just 
cannot be changed because Park Service management has to be 
uniform throughout the parks.
    Ms. Mainella. I will be glad to work with you.
    Mrs. Christensen. It would be a good gesture of good will.
    And the other one, again, something else that I would just 
like to get some commitment on behalf of the people of the 
Virgin Islands, particularly St. Croix and St. John again, that 
as the monuments issue is determined, we would anticipate that 
GAO will be answering us shortly, that we will be able to 
have--that the Park Service will conduct a public education 
campaign, mainly to help us inform my constituents as to the 
benefits of the monument, which they are not too sure about 
right now, and that there would be an appropriate period for 
decisionmaking, as well.
    Ms. Mainella. Yes, ma'am.
    Mrs. Christensen. The other thing that we would like to 
consider and discuss further is whether, if there is economic 
injury, that there would be some kind of compensation, but 
particularly, I want the public education period and the--
    Ms. Mainella. I know the public education and--
    Mrs. Christensen. --and the management decisions--
    Ms. Mainella. Right, the management--
    Mrs. Christensen. --the consultation.
    Ms. Mainella. That is correct.
    Mrs. Christensen. We appreciate that.
    Ms. Mainella. Thank you.
    Mrs. Christensen. I do not know that I have another 
question right now.
    Mr. Radanovich. Thank you, Mrs. Christensen.
    I have got one final question, Director. On the new 
policies that have been submitted to the Committee--
    Ms. Mainella. Yes?
    Mr. Radanovich. --do you consider these to be 
interpretative rules?
    Ms. Mainella. As I look at the policies, we are going to be 
helping--in other words, they give us the general overview. We 
are now going to be looking at guidelines. I think I mentioned 
we have work groups working on guidelines to be more succinct 
in interpreting those particular policies. So I guess they are 
much more generalistic, but they actually, hopefully, will help 
keep us so that they have a little more substance to them than 
what will mean where we were found on that first court case, to 
find that we were not even addressing the Organic Act in a 
proper way.
    So we are trying to be more consistent, try to give some 
general guidelines to our staff, but then we will need to go 
into more detail through guidelines and others to be--and I 
think that is what will really play in, where we can work with 
you on some of those and take a look at how we proceed on that.
    Mr. Radanovich. Terrific. Do we have an idea of when we 
might see you again to discuss these?
    Ms. Mainella. Well, I am always available to you, but I 
know the Committee has been working on some of these guidelines 
for a while and I think they are trying to pick up the pace. We 
have asked that the Committee pick up the pace and try to do 
something in the next number of months, so I can give you a 
more realistic timeframe very shortly.
    Mr. Radanovich. Very good.
    Ms. Mainella. But we will be working on that.
    Mr. Radanovich. Very good. I am asking unanimous consent, 
if there is no objection, that any questions that Committee 
members might have to submit to the Director, that they be 
allowed to do so in written form. That would be wonderful.
    Ms. Mainella. Thank you.
    Mr. Radanovich. Mr. Jones, Mr. Soukup, thank you for your 
great assistance, and Director Mainella, it has been wonderful 
to have you before our Committee.
    Ms. Mainella. Thank you. Thank you, sir.
    Mr. Radanovich. I certainly look forward to working with 
you on these and many, many more issues.
    Ms. Mainella. Thank you, sir. I do appreciate it. Thank 
you.
    Mr. Radanovich. Thank you for being here.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]

    The following information was submitted for the record:
    <bullet> LAssociation of National Park Rangers, Statement 
submitted for the record
    <bullet> LGallegly, Hon. Elton, a Representative in 
Congress from the State of California, Statement submitted for 
the record
    <bullet> LKiernan, Thomas C., President, National Parks 
Conservation Association, Statement submitted for the record

    [The statement submitted for the record by the Association 
of National Park Rangers follows:]

   Statement of Ken Mabery, President, Association of National Park 
                                Rangers

    The Association of National Park Rangers (ANPR), an organization of 
1,100 employees of the National Park Service (NPS) appreciates the 
opportunity to submit written testimony concerning the National Park 
Service's Management Policies. We welcome this opportunity to share our 
views on how they are applied to daily management of the National Park 
System.
    National Parks are spread out across the nation and its 
territories. Park environments and management situations vary from 
extremes of temperatures, isolation and elevation. Urban sites, such as 
those in New York City receive thousands of visitors every week, while 
small isolated parks such as those in North Dakota may go days without 
seeing any visitor during the winter. This distribution and variety 
provides many challenges to managing the National Parks with 
consistency. Visitors expect the parks to be managed to the highest 
standard of consistent and professional care. Significant 
responsibility is placed on park superintendents to resolve the issues. 
Superintendents and others consult Management Policies as they try to 
ascertain their best course of action. Most of the policies offer 
necessary flexibility to deal with the variety of local circumstances, 
resources and resource conditions, regional demographics, and other 
special circumstances, while informing staff about the legal 
constraints. Where they do not offer flexibility, it is usually because 
there is a law or some other higher-level authority that limits the 
policy choices.
    Fundamental concepts and directions contained in the 2000 edition 
of Management Policies have remained unchanged since 1918 when 
Secretary of the Interior Franklin Lane issued the first written 
policies. ``The Lane Letter,'' as it is known in the NPS, stated that 
``Every activity of the Service is subordinate to the duties imposed 
upon it to faithfully preserve the parks for posterity in essentially 
their natural state.'' His statement was based on the August 25, 1916, 
``National Park Service Organic Act.'' While the ``Lane Letter'' 
totaled no more than a few pages, more elaborate policies are 
necessitated today because the challenges of managing the parks have 
become much more complicated, as have the laws which govern management 
of the parks. Because of this complexity, most NPS employees appreciate 
having at their fingertips a set of policies that help them perform 
their jobs better. When we do our jobs better, we serve the parks and 
the American people better.
    We have heard some concern that the 2000 edition of Management 
Policies is a radical departure from the 1988 edition. But in reading 
the two documents closely, we find that this is not the case. It is 
true that there are more details in the new edition and more guidance 
and explanation, but rangers and other NPS employees find that to be 
helpful. It is helpful because it makes it easier to understand the 
many factors we must consider in resolving problems, and because it 
allows us to approach problems with more consistency across the 
National Park system. As field employees, we find the following 
expansions to be quite helpful:
    <bullet> LDetailed explanation of our responsibility to manage 
parks unimpaired for the enjoyment of future generations. (More on this 
later.)
    <bullet> LDiscussions of value analysis, sustainability, 
environmental leadership, partnerships, external threats to the parks, 
and natural sound, light, and odors.
    <bullet> LRecognition of the need for scientific management of park 
resources including social sciences.
    <bullet> LGuidance on implementing new laws, such as GPRA, NAGPRA, 
and the National Park Omnibus Management Act of 1998.
    <bullet> LBetter definition of consultation responsibilities with 
Tribal Governments.
    <bullet> LBetter guidance on the educational role of national 
parks, wilderness management, and on facility planning and design.
    <bullet> LImproved planning processes.
    One issue of particular interest to employees of the NPS is the way 
the new Management Policies interprets the Organic Act's no-impairment 
clause found in Section 1.4 of the policies. This clause truly 
distinguishes National Park management from management of all other 
public lands. The history and traditions of the Service, and indeed, of 
every employee, is tied to providing for the preservation and 
perpetuation of park resources in such manner as will leave them 
unimpaired for future generations. Numerous articles discussing and 
debating this issue have appeared in ANPR's Journal, Ranger Magazine.
    In the 1978 amendments to the General Authorities Act, and in the 
National Park Service Concessions Management Improvement Act of 1998, 
Congress reasserted its intent that the Service manage parks in ways 
that will leave them unimpaired for the enjoyment of future 
generations. The courts are also holding the NPS accountable. In the 
case, Southern Utah Wilderness Alliance v. Dabney, et al., aspects of 
Canyonlands National Park's proposed Backcountry Management Plan were 
challenged as being in violation of the no-impairment clause. During 
the appeal, the Service took the necessary step of defining its 
interpretation of ``impairment.'' In its simplest form, the Service's 
interpretation recognizes that we cannot ensure enjoyment by future 
generations unless we first make sure that the current quality of park 
resources is sustained. This seems eminently reasonable and logical. In 
retrospect, it seems amazing that it took the Service 85 years to do 
this.
    Despite the legal mandates and court rulings, some NPS managers 
have interpreted the Organic Act to allow them to impair park resources 
if it will serve the interests of public use and enjoyment. In order to 
implement the requirements of law more consistently, the 2000 
Management Policies provides the clearest interpretation and guidance 
yet of the non-impairment clause. As the employee members of ANPR read 
and interpret this clause, based on the new guidance found in Section 
1.4, the Service is to conserve in an unimpaired condition all the 
resources and values in the parks for the enjoyment of those who are 
here today, and those who will follow in future generations. How the 
question of impairment must be factored into the decision is explained 
as clearly as possible given the scope and breath of the System's units 
and resources. We realize that Section 1.4 does not provide a precise 
distinction between what is, and what is not, an impairment. That is as 
it should be, again given the multiplicity of conditions from Alaska to 
the Everglades and from the Pacific Islands to downtown New York City. 
The policies do provide an outline of the conditions where an impact 
would be more likely to constitute impairment.
    To the extent that an impact affects a resource or value whose 
conservation is: necessary to the specific purposes for which the park 
was established; key to the natural or cultural integrity of the park 
or to opportunities for enjoyment; or identified as a key component in 
an approved park plan, that impact is more likely to constitute an 
impairment. Evaluation of this potential impairment then becomes part 
of the public participation process routinely perform under NEPA.
    We are distressed to hear beliefs that Park Superintendents intend 
to use the non-impairment policy as a basis for closing parks to 
development and for discouraging public entry into the parks. We do not 
believe that Park Superintendents have any wish or intent to do that. 
It is true that park uses which might cause impairment must be strictly 
controlled and sometimes even prohibited in order to meet the Organic 
Act's mandate. But it is clear from reading Management Policies that 
avoiding impairment does not mean that all development and use of the 
parks must come to an end. Impairment is something that occurs only 
when the very integrity of a park would be compromised. Projects or 
activities that impact a park can still take place, as long as their 
impacts are not so damaging that they violate the Organic Act. It's 
been more than a year and a half since the non-impairment policy was 
first adopted in Director's Order 55, and park management has proceeded 
quite normally. Avoiding impairment means is that park managers must be 
careful about what they do. There is nothing really new about that. 
Congress has told us that inclusion in the National Park system is 
reserved for those places that are most important to our nation's 
heritage. It is common sense, then, that the highest standard of care 
should apply to these very special places.
    One of the decisions field managers must make regularly pertains to 
what kinds of park uses are appropriate. When Congress has spoken to 
this issue in a park's enabling legislation, the decisions are not 
usually difficult. But when the legislative intent is not known, 
managers sometimes find themselves in a quandary. A highlight of the 
current Management Policies for field managers are definitions in 
Chapter 8 of activities that the National Park Service will encourage. 
They include those that:
    <bullet> LAre inspirational, educational, healthful, and otherwise 
appropriate to the park environment;
    <bullet> LWill foster a continuing appreciation for park resources 
and values; and
    <bullet> LWill promote enjoyment through association and 
interaction with, park resources.
    In addition, managers can allow other activities, provided they:
    <bullet> LAre appropriate to the reason the park was established; 
and
    <bullet> LCan be sustained without impairing park resources or 
values.
    Finally, managers making decisions are given direction on 
prohibited activities, which include those that:
    <bullet> LWould impair park resources or values;
    <bullet> LCreate an unsafe or unhealthful environment for other 
visitors or employees;
    <bullet> LAre contrary to the purposes for which the park was 
established; or
    <bullet> LUnreasonably interfere with:
      * Lthe atmosphere of peace, tranquility, and natural quiet 
maintained in wilderness, natural, historic, or commemorative locations 
within a park;
      * LNPS interpretive, visitor service, administrative, or other 
activities;
      * LNPS concessioner or contractor operations or services; or
      * Lother existing, appropriate park uses.
    It is important to ANPR's membership that something so important to 
our lives should be embraced by everyone who truly cares about the 
parks. As employees of the National Park Service, the members of ANPR 
appreciate the strong sense of direction we have received from Congress 
that enjoyment of parks today must not be at the expense of future 
generations. The ANPR believes that the new edition of Management 
Policies is faithful to, and consistent with, that direction. We must 
be ever vigilant to manage the unique and splendid resources of the 
nation's historic icons, the places of scenic grandeur, and the 
scientific values not yet realized for the benefit of all of the people 
in all of the tomorrows yet to come.
    Mr. Chairman, thank you for the opportunity to provide you with 
this background information.
                                 ______
                                 
    [The statement submitted for the record by Mr. Gallegly 
follows:]

Statement of The Honorable Elton Gallegly, a Representative in Congress 
                      from the State of California

    Mr. Chairman, thank you for holding this important hearing. The 
2001 National Park Service Management Policies Statement is the 
handbook the National Park Service uses to guide the management of 
America's parks. It is critical that this handbook reflect the laws and 
intentions of Congress, and the best interests of the public. Anything 
less will only provoke future conflict between the public and the Park 
Service.
    Enjoyment of our national parks is one of two guiding principles 
set forth in the 1916 Organic Act that created the National Park 
Service. Unfortunately, the 2001 management policies virtually ignore 
that goal, placing a disproportionate emphasis on restricting public 
access. Consequently, these rules are used as a sledgehammer to drive 
the public out of their own parks. The most recent example of this 
trend has been attempts to ban personal watercraft and snowmobiles in 
most parks.
    Mr. Chairman, I believe the Park Service should not be as concerned 
about restricting public access, but should instead give proper 
attention to the mounting maintenance backlog that is affecting 
recreational opportunities within our parks. Again, I thank the 
Chairman.
                                 ______
                                 
    [The statement submitted for the record by Mr. Kiernan 
follows:]

Statement of Thomas C. Kiernan, President, National Parks Conservation 
                              Association

    The National Parks Conservation Association (NPCA) appreciates this 
opportunity to submit written testimony regarding the National Park 
Service's 2001 Management Policies. NPCA is America's only private, 
nonprofit advocacy organization dedicated solely to protecting, 
preserving, and enhancing the national park system. NPCA was founded in 
1919 and today has approximately 400,000 members. For over eighty 
years, NPCA has been dedicated to ensuring the protection and 
appropriate management of America's natural, cultural, and historic 
legacy--a legacy that is contained within the national park system.
    The National Park Service (NPS or the Service) is unique among 
federal land management agencies. The lands, wildlife, plants, 
artifacts, structures, processes, and values protected and managed by 
the Service all belong to an elite and internationally renowned system 
of preserves. Each unit within the national park system has been set 
aside because Congress has determined that it contains at least one 
``superlative'' example of a ``nationally significant'' natural, 
cultural, historic, or recreational resource.
    When creating the Service in 1916, Congress directed the agency to,
        ``promote and regulate the use of the [parks]...by such means 
        and measures as to conform to the fundamental purpose of the 
        said parks, monuments, and reservations, which purpose is to 
        conserve the scenery and the natural and historic objects and 
        the wild life therein and to provide for the enjoyment of the 
        same in such manner and by such means as will leave them 
        unimpaired for the enjoyment of future generations.''
    16 U.S.C. 1 (emphasis added).
    In the amendments to the Organic Act, Congress stated that park 
management ``shall be conducted in light of the high public value and 
integrity of the National Park System and shall not be exercised in 
derogation of the values and purposes for which these various areas 
have been established...'' And further that the national park system is 
to be ``preserved and managed for the benefit and inspiration of all 
the people of the United States.'' 16 USC 1a-1
    These directives found in the 1916 Organic Act and the 1970 and 
1978 amendments thereto, impose mandatory obligations on the Service to 
prevent impairment of park resources and values and, consistent with 
that requirement, to provide for enjoyment of those resources by park 
visitors. They require park managers to exercise informed and careful 
judgments to protect all park resources to the greatest extent 
possible, to minimize adverse impacts, and to avoid any action that may 
cause impairment of park resources. Providing a quality visitor 
experience is contingent upon having first ensured the full and 
uncompromised protection of park resources.
    Given the significant and unique mandate Congress has given to the 
National Park Service, it is natural, indeed it is necessary, that the 
agency have a clear set of policies and principles to guide its 
management decisions as it works to fulfill its critical mission. It is 
essential that the Service have a single, instructive document that can 
be used by each of the agency's managers. Congress has stated that all 
park units, ``though distinct in character, are united through their 
inter-related purposes and resources into one national park system as 
cumulative expressions of a single national heritage.'' And further 
that ``the promotion and regulation of the various areas of the 
National Park System'' shall be consistent with and founded in the 
purpose established by the [Organic Act] to the common benefit of all 
the people of the United States.'' 16 USC 1a-1
    The Service's 2001 Management Policies (Policies) serve the vital 
role of providing each park manager with the information necessary to 
make most policy-based park management decisions. While not a radical 
departure from the 1988 guidance, the 2001 Management Policies continue 
an important evolution in park management principles and practices. The 
Policies contain new guidance that is based on laws and regulations 
that have been enacted since the previous edition as well as more 
detailed guidance based on the agency's 85 year old Organic Act.
    Of most significance is the explicit statement by the agency 
regarding the primacy of park resource protection:
        ``While Congress has given the Service the management 
        discretion to allow certain impacts within parks, that 
        discretion is limited by the statutory requirement (enforceable 
        by the federal courts) that the Park Service must leave park 
        resources and values unimpaired, unless a particular law 
        directly and specifically provides otherwise. This, the 
        cornerstone of the Organic Act, establishes the primary 
        responsibility of the National Park Service. It ensures that 
        park resources and values will continue to exist in a condition 
        that will allow the American people to have present and future 
        opportunities for enjoyment of them.''
    National Park Service 2001 Management Policies Sec. 1.4.4
    At times over the course of its history, the Service has struggled 
with making management decisions in light of the agency's mandate both 
to preserve park resources and to provide for their enjoyment. On 
numerous occasions, agency confusion regarding its mandate has led to 
management decisions in different parks or at different times that 
appear contradictory. The Service's congressional mandate, however, 
does not burden the agency with the impossible task of managing the 
parks while attempting to balance two co-equal interests: resource 
protection and visitor enjoyment.
    The agency's formal recognition that it is impossible to carry out 
its mandate to provide for the enjoyment of park resources until it has 
first ensured their protection is one of the most significant steps 
forward in the history of park policy. To weaken or eliminate this 
section of the management policies would not only set the Service back 
several decades, it would be contrary to Congress' clear intent 
regarding the management of our national parks.
    NPCA is aware that some have expressed concern regarding the impact 
of the new Policies on the public's ability to visit the parks and 
enjoy park resources. Over the past year and a half, since the 
publication first of Director's Order 55 and subsequently the full 2001 
Management Policies, the Service has not taken any steps that would 
unnecessarily restrict opportunities to visit the parks. The 2001 
Management Policies do not impose any limitations beyond those that 
exist within the Organic Act itself.
    As discussed earlier, national parks are unique among public lands. 
Each unit has been set aside to preserve and promote the enjoyment of 
one or more specific resources. Their distinctive place among federal 
lands dictates that not every form of access or every type of activity 
will be appropriate within the parks. Activities and developments that 
would impair park resources or adversely impact the ability of visitors 
to enjoy and be ``inspired'' by these special places have always been 
prohibited by the Organic Act.
    Congress' clear direction that the parks be open and accessible for 
visitor enjoyment signifies that not all activities, uses, or 
developments that have an impact on park resources rise to the level of 
impairment. The Act surely does not prohibit all activities or 
developments within parks--even those that are found to have an adverse 
impact on park resources are permissible if the park manager has sought 
to avoid or minimize such impacts and if the impacts are ``necessary 
and appropriate to fulfill the purposes of a park, [and] so long as the 
impact does not constitute impairment of the affected resources and 
values.'' National Park Service 2001 Management Policies Sec. 1.4.3
    Another important section of the new Policies is the list of the 
resources and values that are covered by the non-impairment standard, a 
portion of which appears below:
        ``The park's scenery, natural and historic objects, and 
        wildlife, and the processes and conditions that sustain them, 
        including, to the extent present in the park: the ecological, 
        biological, and physical processes that created the park and 
        continue to act upon it; scenic features; natural visibility, 
        both in daytime and at night; natural landscapes; natural 
        soundscapes and smells; water and air resources; soils; 
        geological resources; paleontological resources; archeological 
        resources; cultural landscapes; ethnographic resources; 
        historic and prehistoric sites, structures, and objects; museum 
        collections; and native plants and animals.''
    National Park Service 2001 Management Policies Sec. 1.4.6
    The Service's mandate to provide for the enjoyment of park 
resources is not limited to educational materials and visual 
impressions. To the fullest extent possible, the Park Service is to 
preserve or restore and then make available all of the elements that 
define a place--elements such as dark night and clear day skies, 
natural soundscapes, and natural smells. Parks are meant to be places 
in which the visitor is totally immersed in the experience of place, 
history, and context. These are to be places where people can escape 
the sights and sounds that consume their daily lives.
    NPCA believes that these resources, experiences, and values are 
important to the Administration as well. In a speech given in 
September, 2000 then Governor George Bush stated, ``America's first 
environmental president, Theodore Roosevelt, talked of the value of 
`silent places, unworn by man.' These places inspired him--and he 
inspired our government to protect them. I view protecting America's 
`silent places' as an ongoing responsibility, a shared commitment of 
the American people and our government.''
    For these and a host of other significant reasons, NPCA believes 
that the principles and practices contained within the 2001 Management 
Policies are essential elements of the Park Service's management 
guidance system. As stated earlier, the weakening or elimination of 
these policies would not only set the Park Service back decades, it 
would be contrary to Congress' clear intent regarding the management of 
our national parks.
    We appreciate the opportunity to present this written testimony and 
look forward to continuing to work with the Subcommittee to ensure that 
the resources and values of our national park system are preserved 
unimpaired for the enjoyment of this and future generations.

                                   - 

</pre></body></html>
